Audit Report




OIG-CA-10-009
SAFETY AND SOUNDNESS: Material Loss Review of Union
Bank, National Association
May 11, 2010




Office of
Inspector General
Department of the Treasury
Contents



Memorandum for the Comptroller of the Currency


Section I   Mayer Hoffman McCann P.C.’s Report on Material Loss
            Review of Union Bank, National Association


Section II Prior Office of Inspector General Material Loss Review
           Recommendations


Section III Report Distribution
This page intentionally left blank.
                                         DEPARTMENT OF THE TREASURY
                                               W ASHINGTON, D.C. 20220




     OFFICE O F
INSPECTOR GE NE RAL
                                                  May 11, 2010




             MEMORANDUM FOR JOHN C. DUGAN
                            COMPTROLLER OF THE CURRENCY

             FROM:                    Jeffrey Dye
                                      Director, Banking Audits

             SUBJECT:                 Material Loss Review of Union Bank, National Association


             INTRODUCTION

             The Office of the Comptroller of the Currency (OCC) closed Union Bank, National
             Association (Union Bank), Gilbert, Arizona, and appointed the Federal Deposit
             Insurance Corporation (FDIC) as receiver on August 14, 2009. As of January 26,
             2010, FDIC estimated that Union Bank’s loss to the Deposit Insurance Fund was
             $54.5 million.

             Under section 38(k) of the Federal Deposit Insurance Act, we are responsible for
             conducting a material loss review of the failure of Union Bank. To help fulfill this
             responsibility, we contracted with Mayer Hoffman McCann P.C. (MHM), an
             independent certified public accounting firm. MHM’s report dated April 20, 2010, is
             provided as Section I.

             RESULTS OF MATERIAL LOSS REVIEW

             We concur with MHM’s report that indicated:

                  •   Union Bank failed primarily because of high commercial real estate
                      concentrations with a particular focus on construction and land development
                      loans in Arizona. Once the real estate market began declining, Union Bank
                      was exposed to rapid asset quality deterioration and the losses ultimately led
                      to its demise.

                  •   A stronger supervisory response by OCC was warranted to address the high
                      commercial real estate concentrations.

             Details of their conclusions are in their report.
Page 2

We also concur with MHM’s recommendation in the report that:

   •   OCC work with its regulatory partners to determine whether to propose
       legislation and/or change regulatory guidance to establish limits or other
       controls for concentrations that pose an unacceptable safety and soundness
       risk and determine an appropriate range of examiner responses to high risk
       concentrations.

Please be advised that in accordance with Treasury Directive 40-03, “Treasury
Audit Resolution, Follow-up, and Closure,” OCC is responsible for taking corrective
action on this recommendation. OCC should also record the recommendation and
related actions in the Department of the Treasury’s Joint Audit Management
Enterprise System (JAMES).

We are providing, as Section II, a listing of recommendations made as a result of
completed material loss reviews of OCC-regulated institutions during the current
economic crisis. Section III identifies the recipients of this report.

OBJECTIVES, SCOPE, AND METHODOLOGY

Under section 38 (k), we are responsible to prepare a report to OCC that
(1) ascertains why Union Bank’s problems resulted in a material loss to the Deposit
Insurance Fund; (2) reviews OCC’s supervision of the institution, including its
implementation of the prompt corrective action provisions of section 38(k); and
makes recommendations for preventing any such loss in the future. Section 38(k)
defines a loss as material if it exceeds the greater of $25 million or 2 percent of the
institution’s total assets.

To help fulfill these responsibilities, we contracted with MHM to perform a material
loss review in accordance with generally accepted government auditing standards.
We evaluated the nature, extent, and timing of the work; monitored progress
throughout the audit; reviewed the documentation of MHM; met with partners and
staff members; evaluated the key judgments; met with OCC officials; performed
independent tests of OCC supervisory records; and performed other procedures we
deemed appropriate in the circumstances. We conducted our work in accordance
with generally accepted government auditing standards.

Should you wish to discuss the report, you may contact me at (202) 927-0384 or
Jaideep Mathai, Audit Manager, at (202) 927-0356.
                       Section I

        Mayer Hoffman McCann P.C.’s Report on
Material Loss Review of Union Bank, National Association
This page intentionally left blank.
Inspector General
Department of the Treasury
Material Loss Review of
Union Bank, National Association
April 20, 2010
Table of Contents

Mayer Hoffman McCann P.C. Audit Report .....................................                                       1

Results in Brief ...............................................................................................    2

Causes of Union Bank’s Failure......................................................................               3
     Heavy concentration in commercial real estate ...................................                             3
     Reliance on Internet CDs ....................................................................                 6
     Inadequate management and governance...........................................                               9

OCC’s Supervision of Union Bank .................................................................. 12
     Stronger Supervisory Response to Union Bank’s Heavy Concentration in
     Commercial Real Estate Warranted..................................................... 12
     Prompt Corrective Action Used Appropriately ..................................... 14
     Lessons learned review by OCC ......................................................... 16

Recommendation............................................................................................         16

Appendices
Appendix 1: Objectives, Scope, and Methodology .......................................                             17
Appendix 2: Background ..............................................................................              20
Appendix 3: Glossary ...................................................................................           23
Appendix 4: Chronology of Significant Events ..............................................                        28
Appendix 5: OCC Union Bank, N.A. Examinations and
            Enforcement Actions ................................................................                   33
Appendix 6: Management Response ...........................................................                        36

Acronyms in the Report
ADC                Acquisition and Development Construction
ALLL               Allowance for Loan and Lease Losses
CEO                Chief Executive Officer
CRE                Commercial Real Estate
FDIC               Federal Deposit Insurance Corporation
FRB                Federal Reserve Board
IT                 Information Technology
MRA                Matters Requiring Attention
OIG                Department of the Treasury, Office of Inspector General
OCC                Office of the Comptroller of the Currency
PCA                Prompt Corrective Action
ROE                Report of Examination




                             Material Loss Review of Union Bank, N.A.                                                   Page i
Inspector General
Department of the Treasury

RE: Transmittal of Results for the Material Loss Review Report for Union Bank, Gilbert,
Arizona

This letter is to acknowledge delivery of our performance audit report of the Material Loss
Review for Union Bank in accordance with Contract No. GS-23F-0288N, Order No. TPD-
OIG-09-K-00043. The objectives of this performance audit were to: (1) determine the
causes of Union Bank’s failure and resulting material loss to the Deposit Insurance Fund
and (2) evaluate the Office of the Comptroller of the Currency’s supervision of Union Bank,
including the FDIC’s implementation of the Prompt Corrective Action (PCA) provisions of
section 38.

The performance audit results are in the accompanying performance audit report. The
information included in this report was obtained during our fieldwork, which occurred during
the period from October 22, 2009 through December 23, 2009.

We conducted our performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objective.


Leawood, Kansas
April 20, 2010




                    Material Loss Review of Union Bank, N.A.                          Page 1
Results in Brief
              Union Bank failed primarily because of high commercial real estate
              concentrations with a particular focus on construction and land
              development loans in Arizona. The bank embarked on a growth
              strategy that emphasized commercial lending starting in 2004 when it
              hired a new president. While growing its loan portfolio, Union Bank’s
              board and management did not establish adequate risk management
              systems to properly monitor and control the risks inherent in a
              commercial real estate portfolio. In addition, the bank funded its growth
              through high cost Internet certificates of deposit (CDs). Once the real
              estate market began declining, Union Bank was exposed to rapid asset
              quality deterioration and the losses ultimately led to its demise.

              A stronger supervisory response by the Office of the Comptroller of the
              Currency (OCC) was warranted to address the high commercial real
              estate (CRE) concentrations. OCC recognized the bank’s CRE
              concentrations in its 2006 examination. However, this issue was not
              elevated to a matter requiring attention (MRA) until the 2007
              examination. In its 2007 full-scope examination, OCC required certain
              corrective actions through MRAs to address general concerns with the
              bank’s credit administration and CRE concentrations. On April 21,
              2008, OCC began a limited scope examination of Union Bank’s CRE
              portfolio targeting asset quality. At the conclusion of the examination,
              OCC downgraded the composite CAMELS rating of the bank from 2 to
              4.

              We concluded that the corrective actions in the 2007 full-scope
              examination were too general and not critical enough of Union Bank’s
              high concentrations in CRE loans. The CAMELS rating of 2 assigned
              to both asset quality and capital adequacy was inconsistent with the
              nature and significance of examination comments as well as the
              guidance in the Interagency Policy Statement on CRE Concentrations.

              OCC conducted timely and regular examinations of Union Bank and
              provided oversight through its off-site monitoring. In addition, OCC
              appropriately used its authority under prompt corrective action (PCA)
              when it issued a cease and desist (C&D) order on August 18, 2008
              and reclassified Union Bank’s capital level to adequately capitalized as
              well as imposing restrictions on deposit pricing and brokered deposits.

              OCC has not yet completed an internal failed bank review of Union
              Bank.

              We recommend that OCC work with its regulatory partners to
              determine whether to propose legislation and/or change regulatory

              Material Loss Review of Union Bank, N.A.                           Page 2
             guidance to establish limits or other controls for concentrations that
             pose an unacceptable safety and soundness risk and determine an
             appropriate range of examiner response to high risk concentrations.


Causes of Union Bank’s Failure
             Heavy Concentration in Commercial Real Estate

             From January 1, 2004 through December 31, 2007, the bank grew
             assets by more than 1.5 times – from $53 million to $137 million. The
             growth was an intentional business strategy initiated by the bank’s
             board of directors in 2004 when it hired a new president. As illustrated
             in Figure 1, the growth was primarily achieved through the origination
             of real estate loans.

             Figure 1, Loans from 2003 to 2008 (in thousands)




              $100,000




               $75,000




               $50,000                                                                $92,917

                                                                         $73,865
                                                         $70,068                                          $67,782

                                             $49,051
               $25,000

                           $18,386


                   $0
                           2003             2004         2005           2006          2007            2008
                                     Real estate loans    Commerical and Industrial     All other loans


               Source: Analysis from FDIC Statistics on Depository Institutions

             Of the real estate loans, the bank concentrated on construction and
             development loans that had original maturities between 12 and 18
             months and were generally underwritten with interest reserves that
             serviced interest payments until maturity. Because of the short-term
             nature of these loans, the bank’s portfolio turned over frequently and
             showed few delinquencies until the real estate market slump. Figure 2
             illustrates Union Bank’s growth in its construction and development
             loan portfolio.


             Material Loss Review of Union Bank, N.A.                                                               Page 3
                       Figure 2, Composition of real estate portfolio (in thousands)
                                   Construction and land development            Commercial real estate
                                   Multifamily residential real estate



                               $100,000

                                $80,000
                                                                            `
                                $60,000

                                $40,000

                                $20,000

                                    $0
                                           2003         2004         2005           2006       2007      2008


                          Source: Analysis from FDIC Statistics on Depository Institutions

                       In the Concentration in Commercial Real Estate Lending, Sound Risk
                       Management Practices, issued December 2006 (Joint Agency
                       Guidance), a bank is potentially exposed to commercial credit risk if
                       either (1) loans for construction, land development and other land
                       exceed 100 percent of total capital, or (2) total commercial real estate
                       loans represent over 300 percent of total capital and the balance of the
                       portfolio increases more than 50 percent in the prior 36 months.1
                       Union Bank was continuously exposed to commercial real estate
                       concentration risk. Figure 3 depicts the bank’s construction, land and
                       development loans as a percent of capital for the years ending
                       December 31:

                       Figure 3, Commercial Real Estate Concentrations
                                                                                 Construction and Land
                                                                                Development Loans as a
                                            December 31,                           Percent of Capital
                                                2005                                     530%
                                                2006                                     479%
                                                2007                                     568%
                                                2008                                     420%
                                Source: Analysis from FDIC Statistics on Depository Institutions




1
  Under OCC's guidance, a concentration of credit consisted of direct, indirect, or contingent obligations
exceeding 25 percent of the bank's capital structure, which is composed of Tier 1 Capital plus the allowance
for loan loss. The Joint Agency Guidance established heightened risk management expectations for
institutions with significant CRE concentrations.

                       Material Loss Review of Union Bank, N.A.                                                 Page 4
Even though Union Bank’s considerable construction and land
development loan concentration made it highly susceptible to negative
market fluctuations, the board did not increase the bank’s capital
position to cushion the bank against any down turn in the real estate
economy. As Figure 4 illustrates, CRE concentrations as a percent of
total capital continued to increase.

Figure 4, CRE Concentrations as a Percent of Total Capital
                                   CRE/Total Capital


         800%


         400%


           0%
               3




                              4




                                            5




                                                          6




                                                                        7




                                                                                 8
            -0




                           -0




                                         -0




                                                       -0




                                                                     -0




                                                                              -0
          ec




                         ec




                                       ec




                                                     ec




                                                                   ec




                                                                            ec
         D




                        D




                                      D




                                                    D




                                                                   D




                                                                            D
Source: Analysis from FDIC Statistics on Depository Institutions

The Joint Agency Guidance reminded institutions that they should hold
capital commensurate with the level and nature of the risks to which
they are exposed. Institutions exposed to significant risks through
commercial real estate concentrations were urged to consider holding
capital in excess of regulatory capital requirements.

As early as the September 30, 2005 examination, OCC examiners
recommended the establishment of a formal capital plan as CRE
concentrations exceeded 400 percent of capital. The recommendation
for a capital plan was communicated in a MRA as a result of the
examination. The CRE concentration level was again noted by
examiners during the December 31, 2007 examination and
communicated as an MRA.

As discussed later in this report, Union Bank’s capital was eroded by
several factors including the board’s approval to pay excessive
discretionary expenses, continual funding of a planned branch and
headquarters building in Chandler, Arizona, its willingness to continue
holding CRE concentrations, and its ineffectiveness at ensuring
adequate controls were in place to manage lending risks.




Material Loss Review of Union Bank, N.A.                                             Page 5
Despite the CRE concentrations, the bank’s financial results showed
few signs of stress through 2006. There were no charge offs for the
years ended December 31, 2005 or 2006 in the bank’s real estate
portfolio nor were there any non-accrual CRE loans at either
December 31, 2005 or 2006. However, beginning in 2007, as the
Arizona real estate market began to deteriorate, the bank’s exposure
became evident. The figure below illustrates increases in other real
estate owned (OREO) and non-accrual loans as of December 31,
2006, 2007 and 2008.

Figure 5, OREO and Non-accrual loans
                                 2006                2007                2008
OREO                           $    -            $ 1,594,000         $ 11,459,000
Non-accrual loans                   -                647,000            6,593,000
 Total                         $    -            $ 2,241,000         $ 18,052,000

  Source: Analysis from FDIC Statistics on Depository Institutions

Union Bank’s lack of charge offs or non-accrual loans during 2005 and
2006 is typical of CRE loans. Because CRE loans – especially
construction and land development loans – generally mature every 12
to 18 months and require no payment until maturity, usual stress
indicators, such as increased delinquency rates, generally lag the
portfolio’s underlying weaknesses. When the underlying collateral
values dropped, Union Bank’s customers were unable to sell or
refinance their projects, exposing the bank to significant losses from its
CRE loans for which it lacked adequate capital to absorb. The lack of
adequate capital to absorb the collateral loss was a contributing factor
to Union Bank’s failure.

Reliance on Internet Certificates of Deposits

The competitive Phoenix banking environment and Union Bank’s small
branch system caused management to rely extensively on CDs
gathered through Internet listing services (Internet CDs) to fund its loan
growth. Figure 6 illustrates Union Bank’s use of interest-bearing
deposits compared to other funding sources.




Material Loss Review of Union Bank, N.A.                                      Page 6
Figure 6, Sources of Funding (in thousands)


      $150,000




      $100,000




       $50,000




             $-
                     2004          2005          2006          2007         2008
                  Time Deposits   Savings Accounts    Demand Accounts   Borrow ings

Source: Analysis from FDIC Statistics on Depository Institutions

In addition, Union Bank was heavily concentrated in time deposits
compared to its peers as illustrated in Figure 7.

Figure 7, Time Deposits as a Percent of Assets – A Peer
Comparison
                                  Dec. 31,      Dec. 31,      Dec. 31, Dec. 31,       Dec. 31,
 Time Deposits/Assets              2004          2005          2006     2007           2008
    Union Bank, N.A.               57%               52%       50%        62%          77%
    Peer                           28%               30%       34%        36%          40%
         Variance                  28%               22%       16%        26%          37%

Source: Analysis from FDIC Statistics on Depository Institutions

As of March 2005, Union Bank held $31 million of Internet CDs, which
comprised 30 percent of all deposits. By December 31, 2007, Internet
CDs grew to $66 million, which amounted to 61 percent of all deposits.
Management favored higher cost Internet CDs over growing local
deposits because of the costs involved in marketing and retaining
customers after initial teaser rates.




Material Loss Review of Union Bank, N.A.                                                 Page 7
                       As a result of the heavy reliance on time deposits, Union Bank’s cost of
                       funds was higher than its peers. However, because most of the
                       deposits were deployed funding high yielding CRE loans, Union Bank’s
                       net interest margins compared favorably to its peers until the bank
                       accumulated significant amounts of non-earning assets due to non-
                       accrual loans and OREO.           Figure 8 compares Union Bank’s
                       performance ratios to its peers.

                       Figure 8, Performance Ratios, 2004 through 2009
                                                          Performance Ratios
                                              Dec. 31, Dec. 31, Dec. 31, Dec. 31, Dec. 31,                June 30,
                                               2004     2005     2006     2007     2008                    2009

                        Cost of Funds *
                         Union Bank, N.A.      1.40%       2.31%       3.23%       4.23%      4.41%        4.66%
                         Peer                  1.12%       1.65%       2.58%       2.99%      2.40%        1.82%
                               Variance        0.28%       0.66%       0.65%       1.24%      2.01%        2.84%

                        Net Interest M argin **
                         Union Bank, N.A. 5.94%            6.13%       6.07%       5.31%       3.44%       0.86%
                         Peer               4.86%          5.12%       5.51%       5.08%       4.27%       3.62%
                               Variance     1.08%          1.01%       0.56%       0.23%      -0.83%       -2.76%

                                                                                      2
                       Source: Analysis from FDIC Statistics on Depository Institutions
                        * Cost of Funds equals year-to-date interest expense divided by average earning assets
                       ** Net Interest Margin equals (interest revenue less interest expense) / average earning assets

                       As highlighted in Figure 8 above, management’s decision to rely on
                       volatile Internet CDs contributed to the bank’s failure. During the 2004
                       examination, OCC examiners noted that Internet CDs were considered
                       unstable because of their rate and credit sensitivity. However, Union
                       Bank’s Internet deposits had been historically stable through 2005.
                       That experience changed when the bank began experiencing financial
                       problems. First, as it was shrinking its asset base, it simultaneously
                       decreased its borrowing base with the Federal Home Loan Bank,
                       making it more reliant on high-cost Internet CDs. Secondly, in late
                       2007, when Union Bank sold its Iowa branches, it also sold a
                       significant portion of its core deposits. Management was forced to
                       replace the core deposits with Internet CDs and some Federal Home
                       Loan Bank advances at much higher rates.




2
 Peer group was obtained through FDIC SDI application. Peers consisted of banks with assets between $50
million and $2 billion in the FDIC San Francisco region.

                       Material Loss Review of Union Bank, N.A.                                                Page 8
Inadequate Management and Governance

Union Bank’s board and management were heavily influenced by the
majority shareholder and, beginning in 2004, a new president who was
hired to grow the bank. The board and management repeatedly failed
to ensure that adequate policies and procedures were in place to
ensure the safety of the bank. OCC began to criticize the board with
its March 2007 examination when it noted that the board met only five
times during 2006. The criticism continued in future examinations
when OCC commented that the board and management failed to fulfill
its promise to hire a senior credit officer, failed to implement effective
risk management systems, and continued to pay substantial
management fees and other discretionary expenses.

The following examples demonstrate the fundamental weaknesses in
the bank’s governance and management functions.

Chandler Facility
In 2005, Union Bank’s management decided to purchase land in
Chandler, Arizona, to construct a new branch and corporate offices.
The bank purchased the land in March 2007 and began construction in
August 2007. In July 2008, the bank’s CAMELS composite rating was
downgraded to a 4, and in August 2008, the bank was notified that it
was in troubled condition and entered into a C&D order with OCC.
Despite the bank’s failing financial health, management and the board
continued to fund the building’s construction, diverting needed liquidity
to a non-earning asset.

Figure 9, plots the bank’s expenditures on the branch. All amounts
invested above the horizontal line represent investments after the bank
was downgraded to a composite 4.




Material Loss Review of Union Bank, N.A.                            Page 9
                         Figure 9, Investment in Facility
                                                              Investment in Chandler Facility

                                                $12,000,000

                                                $10,000,000

                                                 $8,000,000




                                 $'s Invested
                                                 $6,000,000

                                                 $4,000,000

                                                 $2,000,000

                                                       $-




                                                              M



                                                              Ju 7



                                                              No 7



                                                              M



                                                              Ju 8



                                                              No 8



                                                              M
                                                              Ja



                                                              M



                                                              Se



                                                              Ja



                                                              M



                                                              Se



                                                              Ja
                                                                ar




                                                                ar




                                                                ar
                                                                ay




                                                                ay
                                                                l-0




                                                                l-0
                                                                 n-




                                                                 n-




                                                                 n-
                                                                 v-0




                                                                 v-0
                                                                 p-




                                                                 p-
                                                                  -0




                                                                  -0




                                                                  -0
                                                                   07



                                                                   -0




                                                                   08



                                                                   -0




                                                                   09
                                                                    7




                                                                    8
                                                                    0




                                                                    0
                                                                     7




                                                                     8




                                                                     9
                                                                     7




                                                                     8
                                                                            Month & Year


                                Source: Obtained from bank records

                         In 2009, Union Bank recorded a $2.7 million other-than-temporary
                         impairment charge related to the Chandler facility, which was a
                         significant contributor to the deterioration of the bank’s capital.3

                         In an April 20, 2009 letter, OCC criticized the board for its investment
                         of $4.4 million in the Chandler facility subsequent to the bank being
                         downgraded to a CAMELS composite rating of 4.

                         Business Manager Portfolio
                         Union Bank operated this program, which was essentially an accounts
                         receivable factoring program, profitably until 2005 when it hired the
                         nephew of the chairman of the board to manage the portfolio. The
                         nephew was a recent college graduate with a degree in geography and
                         no previous banking experience. Bank management failed to monitor
                         or supervise his performance. He resigned in 2006 after the bank
                         incurred a $1.4 million loss in the factoring program as a result of not
                         following established controls.

                         Lack of Credit Controls
                         The board failed to establish effective underwriting, approval, or
                         monitoring processes commensurate with the risk inherent in a high
                         CRE concentration.      For example, Union Bank lacked effective
                         systems to identify and monitor credit concentrations. In its 2007
                         examination, OCC issued an MRA requiring the bank to enhance its

3
  OCC examiners concluded that management violated 12 U.S.C § 371d and 12 CFR §5.37 because it failed
to obtain prior approval for its investments in the branch. As such, OCC required the board to promptly divest
of the asset. An appraisal of the property indicated that its fair value was $2.7 million lower than its carrying
cost. As such, the bank recorded an other-than-temporary impairment.

                         Material Loss Review of Union Bank, N.A.                                        Page 10
                      loan segmentation methods in order to better identify concentrations.
                      The MRA was not addressed in a manner satisfactory to the examiners
                      and a second MRA was issued in the 2008 targeted examination.

                      The board also relaxed controls in 2004 related to underwriting quality
                      when it approved raising two senior loan officers’ lending authority to a
                      combined $1,000,000. The board noted the increase was necessary
                      because the loan committee members lacked the expertise to properly
                      evaluate the loans, and that the volume of loans made it difficult for
                      outside loan committee members to approve the loans in a timely
                      manner. In 2007, senior loan officers’ lending authority was again
                      raised, to $1,750,000, at a time when the legal lending authority of the
                      bank was $1,780,000.

                      The board also relaxed controls in 2005 related to the bank’s
                      concentration policies. In 2005, the board identified noncompliance
                      with its loan concentration policies related to residential and
                      commercial real estate. The board concluded that this type of lending
                      was Union Bank’s core business, and concentration limits were raised.

                      Failure to Properly Staff Key Positions
                      In addition to his responsibilities as Union Bank president, the chief
                      executive officer also served as chief financial officer, senior lending
                      officer, and credit administrator from 2004 through 2006. As the
                      bank’s loan portfolio grew with higher risk CRE loans, it required
                      additional staffing in order to manage its activities. OCC instructed the
                      board to hire additional executives through an MRA in its July 2007
                      ROE. The bank hired a chief financial officer; however, the MRA was
                      repeated during its April 2008 examination because the bank had
                      failed to retain a senior credit officer.

                      Discretionary Expenses
                      The majority shareholder’s influence over the board is illustrated by the
                      board’s continued approval of discretionary expenses after being
                      cautioned by OCC. In the 2005 ROE, OCC examiners pointed out that
                      the bank expensed $317,0004 in give-aways, charitable contributions,
                      meals and travel during the year and urged the board to improve
                      controls to ensure the expenses were for legitimate business
                      expenses. OCC repeated the comment in its 2008 targeted exam
                      when it noted that the bank historically had paid substantial
                      management      fees,   charitable    contributions,    and      expense
                      reimbursements on behalf of the principal shareholders.



4
 The 2005 report of examination noted that the $317,000 was made up of: 1) $165,000 in promotions, 2)
$76,000 in charitable contributions, 3) $50,000 in meals, and 4) $26,000 in travel.

                      Material Loss Review of Union Bank, N.A.                               Page 11
OCC’s Supervision of Union Bank
            We believe that the OCC should have provided a stronger supervisory
            response to Union Bank’s real estate concentration levels and other
            issues communicated in the Reports of Examination (ROE).

            Figure 10 summarizes the results of OCC’s safety and soundness
            examinations from ROEs starting with the 2004 examination cycle.
            Appendix 5 provides the details of matters requiring attention.

            Figure 10, Summary of OCC Examinations
                                                                            Formal
               Date        CAMELS         Number of     Number of other   Enforcement
             Started       Ratings          MRA        recommendations      Actions
             7/16/04       2/222322          1                8                None
             1/11/06       2/222222          1                0                None
              7/9/07       2/222322          7                0                None
                                                                          Consent Order
             4/21/08       4/444442             10            0              8/14/08
                                                                             Troubled
                                                                          Condition Letter
             9/30/08*      5/455543             0             0             12/1/2008
            Source: OCC ROEs and call reports
            * Targeted exam

            A Stronger Supervisory Response to Union Bank’s Heavy
            Concentration in Commercial Real Estate was Warranted

            We concluded that a stronger and timelier OCC supervisory response
            was warranted to address the high CRE concentrations that were
            recognized by examiners as early as 2006. In the 2006 examination,
            OCC reminded the board and management that there were inherent
            risks with concentrations and that diversification was a fundamental
            risk management principle. However, this issue was not elevated to an
            MRA until the 2007 examination and asset quality was not downgraded
            until the 2008 exam. The following table summarizes the nature of the
            OCC MRAs from 2004 through 2008.




            Material Loss Review of Union Bank, N.A.                              Page 12
Figure 11, OCC MRAs from 2004 to 2008
                                                          Year
   Type of MRA                              2004   2006      2007      2008
    Liquidity
      Interest rate management               1
      Liquidity management                                               1
    Capital & Management
      Capital plan                                  1                    1
      Discretionary expenses                                             1
    Asset Quality
      Business Manager Portfolio                                 1
      CRE concentrations                                         1      1*
      LTV exceptions                                             1
      Loan grading                                               1      1*
      Credit analysis                                            1      1*
      Staffing                                                   1      1*
      Board supervision                                          1
      Loan covenants                                                     1
      Allowance for loan losses                                          1
      Loan stress testing                                                1
        Source: OCC ROEs and call reports
           * Repeated MRA

During the 2007 exam, OCC issued an MRA related to asset quality in
an attempt to highlight the bank’s risk exposure due to concentrations.
However, OCC did not encourage the bank to reduce its CRE
concentrations or adequately indicate that it was concerned with the
high levels of CRE concentrations carried by the bank.          In our
discussions with OCC examiners, the examiners said that although the
bank exhibited heavy concentrations in CRE lending, they felt that
there was no clear guidance on what levels of concentration were
excessive and posed a safety and soundness issue. It was not until
after the real estate market collapsed that the problems associated
with the excessive levels of concentrations became evident. OCC
examiners indicated that early 2008 was when the real estate
slowdown in Arizona became evident.




Material Loss Review of Union Bank, N.A.                             Page 13
                          MHM discussed the 2007 findings with OCC examiners and whether a
                          stronger response was warranted including downgrades in CAMELS
                          ratings. The examiners indicated that the levels of concentrations
                          were not enough of a factor to warrant a downgrade in the CAMELS
                          Composite rating to a 3. The examiners indicated that a 3-rated bank
                          is considered to have significant problems and there should be fairly
                          tangible criteria available to warrant such a downgrade. The most
                          compelling factor would be increases in classified assets. Those levels
                          were relatively low during the 2007 examination.

                          We conclude that the levels of concentrations carried by the bank were
                          high risk and appropriately noted as such in the ROE comments.
                          However, in hindsight, the 2007 ROE could have been more critical of
                          asset quality given the high concentrations in CRE. While the
                          downturn in the real estate market may not have been evident during
                          the 2007 examination, the CAMELS ratings are to reflect the quantity
                          of existing and potential credit risk associated with the loan portfolio,
                          including levels of asset concentrations5. Due to the nature of CRE
                          loans, particularly construction and land development, the usual stress
                          indicators, such as increased delinquency rates, generally lag the
                          portfolio’s underlying weaknesses. Therefore, additional emphasis on
                          concentrations would have been warranted in the CAMELS ratings
                          assigned.

                          On April 21, 2008, OCC examiners began a limited scope CRE
                          targeted examination of Union Bank. The scope of the examination
                          was a targeted review of asset quality, specifically related to CRE.
                          During the examination, loans totaling approximately $27 million, or
                          approximately 50 percent of the CRE portfolio, were reviewed, and the
                          financial condition and risk profile of Union Bank were assessed. At
                          the conclusion of the examination, OCC downgraded the composite
                          CAMELS rating of the bank from 2 to 4.

                          Prompt Corrective Action Used Appropriately

                          We believe OCC appropriately and timely used its authority under
                          PCA.

                          The purpose of PCA is to resolve the problems of insured depository
                          institutions at the least possible long-term loss to the deposit insurance
                          fund (12 U.S.C. §1831o and 12 C.F.R. §6). PCA provides federal
                          banking agencies with the authority to take certain actions when an
                          institution’s capital drops to certain levels. PCA also gives regulators
                          flexibility to discipline institutions based on criteria other than capital to
                          help reduce deposit insurance losses caused by unsafe and unsound
5
    Uniform Financial Institutions Rating System, December 19, 1996 – Asset Quality

                          Material Loss Review of Union Bank, N.A.                              Page 14
                        practices. For example, OCC’s Enforcement Action Policy6 allows for
                        the imposing of more severe limitations than a bank’s PCA capital
                        category would otherwise permit or require if it is determined that the
                        bank is in an unsafe or unsound condition, or engaging in unsafe or
                        unsound practices.

                          •     On August 14, 2008, OCC took enforcement action in the form
                                of a Cease and Desist Order (C&D) based on results of its April
                                21, 2008 targeted review of asset quality, which revealed
                                continued asset quality erosion, persistent real estate
                                concentrations and large loan losses. At March 31, 2008, the
                                bank was considered well capitalized at its tier 1 risk based
                                capital of 9.31 percent and total risk based capital ratios of
                                10.44 percent.

                          •     On December 1, 2008, OCC transferred supervision of the bank
                                to OCC’s Special Supervision Division based on results
                                reported in the bank’s September 30, 2008 call report that
                                indicated continued erosion in asset quality and deteriorating
                                capital levels.

                          •     On May 1, 2009, OCC notified the board that based on bank’s
                                March 31, 2009 call report, the bank was deemed
                                undercapitalized for PCA purposes and that it was required to
                                submit an acceptable Capital Restoration Plan (CRP) by May
                                18, 2009.

                          •     On June 18, 2009, OCC informed the board that the bank’s
                                CRP was unacceptable primarily because it relied on raising
                                sufficient capital through a proposed future Private Placement
                                Offering, in which there was questionable probability of success.
                                Due to the board’s failure to submit an acceptable CRP, the
                                bank was deemed significantly undercapitalized.

                          •     On July 6, 2009, OCC informed the board that that bank was
                                deemed to be critically undercapitalized based on its June 30,
                                2009 operating results.




6
    OCC Enforcement Action Policy

                        Material Loss Review of Union Bank, N.A.                          Page 15
           Lessons Learned Review by the OCC

           According to OCC headquarters officials, an internal lessons learned
           review of the failure of Union Bank was in process but had not been
           completed at the time of our review. The purpose of the review is to
           asses both the causes of the failure and OCC’s supervision of the
           bank.


Recommendation
           As a result of our material loss review of Union Bank, we recommend
           that OCC work with its regulatory partners to determine whether to
           propose legislation and/or change regulatory guidance to establish
           limits or other controls for concentrations that pose an unacceptable
           safety and soundness risk and determining an appropriate range of
           examiner response to high risk concentrations.

           Management Response
           OCC responded that it works with other regulators to develop guidance
           on a variety of subjects where common issues or concerns exist. Also,
           federal banking agencies are in the process of evaluating a number of
           factors that contributed to current problems in the banking industry and
           will consider what regulatory changes are needed. OCC also
           responded that although it was too early to determine whether the final
           outcome of the agencies’ deliberations will includes changes in
           concentration limits or risk management expectations, it offered
           assurances that OCC will continue to study the situation and interface
           with other regulatory partners.

           Mayer Hoffman McCann P.C. Comment
           The implementation of the recommendation is the responsibility of
           OCC management.

                                     ******************

           We appreciate the courtesies and cooperation provided to our staff
           during the audit.




           Material Loss Review of Union Bank, N.A.                         Page 16
                        Appendix 1
                        Objectives, Scope, and Methodology



                        Our objectives were to determine the causes of Union Bank’s failure
                        and assess the bank’s supervision by the Office of the Comptroller of
                        the Currency (OCC). We conducted this material loss review of Union
                        Bank under contract with Department of the Treasury Office of
                        Inspector General (OIG) in response to its mandate under section
                        38(k) of the Federal Deposit Insurance Act.7 This section provides that
                        if the Deposit Insurance Fund incurs a material loss with respect to an
                        insured depository institution, the inspector general for the appropriate
                        federal banking agency is to prepare a report to the agency that

                        •   ascertains why the institution’s problems resulted in a material loss
                            to the insurance fund;
                        •   reviews the agency’s supervision of the institution, including its
                            implementation of the prompt corrective action (PCA) provisions of
                            section 38 (k); and
                        •   makes recommendations for preventing any such loss in the future.

                        Section 38(k) defines a loss as material if it exceeds the greater of
                        $25 million or 2 percent of the institution’s total assets. The law also
                        requires the inspector general to complete the report within 6 months
                        after it becomes apparent that a material loss has been incurred.

                        The Treasury OIG contracted with our firm to conduct this material loss
                        review of Union Bank based on the loss estimate by the Federal
                        Deposit Insurance Corporation (FDIC). As of January 26, 2010, the
                        FDIC estimated that the loss to the Deposit Insurance Fund from Union
                        Bank’s failure would be $54.5 million which was about 48 percent of
                        Union Bank’s $113.2 million in total assets.

                        Our objectives were to determine the causes of Union Bank’s failure;
                        assess OCC’s supervision of Union Bank, including implementation of
                        the PCA provisions of section 38; and make recommendations for
                        preventing such a loss in the future. To accomplish our objectives, we
                        conducted fieldwork at OCC’s headquarters in Washington, DC, its
                        field office in Phoenix, Arizona, and it’s Western District Office in
                        Denver, Colorado. We also interviewed FDIC personnel in their Irvine,
                        California and San Francisco, California offices. We conducted our
                        fieldwork from November 2009 through January 2010.

                        To assess the adequacy of OCC’s supervision of Union Bank, we
                        determined (1) when OCC first identified Union Bank’s safety and
                        soundness problems, (2) the gravity of the problems, and (3) the

7
12 U.S.C. § 1831o(k).

                        Material Loss Review of Union Bank, N.A.                          Page 17
                          Appendix 1
                          Objectives, Scope, and Methodology



                          supervisory response OCC took to get the bank to correct the
                          problems. We also assessed whether OCC (1) might have discovered
                          problems earlier; (2) identified and reported all the problems; and
                          (3) issued comprehensive, timely, and effective enforcement actions
                          that dealt with any unsafe or unsound activities. Specifically, we
                          performed the following work:

                               •   We determined that the time period relating to OCC’s
                                   supervision of Union Bank covered by our audit would be from
                                   January 1, 2003 through Union Bank’s failure on August 14,
                                   2009. This period included four full scope exams, 14 quarterly
                                   off-site reviews, and one targeted exam.

                               •   We reviewed OCC’s supervisory files and records for Union
                                   Bank from January 2003 through August 2009. We analyzed
                                   examination reports, supporting work papers, and related
                                   supervisory correspondence. We performed these analyses to
                                   gain an understanding of the problems identified, the approach
                                   and methodology OCC used to assess the bank’s condition, and
                                   the regulatory action OCC used to compel bank management to
                                   address deficient conditions. We did not conduct an
                                   independent or separate detailed review of any work performed
                                   by third party accounting firms.

                               •   We interviewed and discussed various aspects of Union Bank’s
                                   supervision with OCC officials, examiners, and an attorney to
                                   obtain their perspectives on the bank’s condition and the scope
                                   of the examinations.

                               •   We interviewed FDIC officials responsible for monitoring for
                                   federal deposit insurance purposes.

                               •   We interviewed officials from FDIC’s Division of Resolutions and
                                   Receiverships who were involved in the supervision and closing
                                   of Union Bank.

                               •   We assessed OCC’s actions based on its internal guidance and
                                   requirements of the Federal Deposit Insurance Act.8




8
    12 U.S.C. § 1811 et seq.

                          Material Loss Review of Union Bank, N.A.                          Page 18
Appendix 1
Objectives, Scope, and Methodology



We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based
on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on
our audit objectives.




Material Loss Review of Union Bank, N.A.                         Page 19
Appendix 2
Background




History of Union Bank, N.A.
Union Bank was chartered in May 1998 as a de novo national bank in
Gilbert, Arizona. The bank was wholly owned by a one bank holding
company, Heartland Bancshares, Inc. (“Heartland” or “Holding
Company”). Heartland was primarily owned and controlled by one
family, which owned approximately 90 percent of the common stock
and 100 percent of the preferred stock. Heartland was at one time a
two bank holding company consisting of Union Bank and a bank in
Iowa. The Iowa bank was merged into Union Bank in 2002, which
resulted in Union Bank having two branches in Iowa. The Iowa
branches of the bank, however, were sold at the end of 2007, leaving
one branch in Gilbert, Arizona.

Appendix 4 contains a chronology of significant events regarding Union
Bank.

Types of Examinations Conducted by OCC

OCC conducts various types of examinations, including full-scope
onsite examinations. A full-scope examination is a combined
examination of the institution’s safety and soundness, compliance with
various laws and regulations, and information technology (IT) systems.

The safety and soundness portion of the examination includes a review
and evaluation of the six CAMELS components: capital adequacy,
asset quality, management administration, earnings, liquidity, and
sensitivity to market risk. OCC assigns the bank a rating for each
component and a composite rating based on its assessment of the
overall condition of the bank and its level of supervisory concern. The
IT portion of the examination evaluates the overall performance of IT
within the institution and the institution’s ability to identify, measure,
monitor, and control technology-related risks. The compliance portion
of the examination includes an assessment of how well the bank
manages compliance with various consumer protection laws and
related regulations, such as the Truth in Lending Act, Truth in Savings
Act, and Bank Secrecy Act. A targeted examination is any examination
that does not fulfill all the statutory requirements of a full-scope
examination.

OCC must schedule full-scope, onsite examinations of insured banks
once during either a 12-month or 18-month cycle. OCC is to conduct
examinations on a 12-month cycle until a bank’s management has
demonstrated its ability to operate the institution in a safe and sound

Material Loss Review of Union Bank, N.A.                           Page 20
Appendix 2
Background



manner and satisfied all conditions imposed at the time of approval of
its charter. Once a bank meets these criteria, OCC may use an 18-
month examination cycle if the bank:
• has total assets of less than $500 million;
• is well-capitalized;
• at its most recent examination received a Management component
    rating of 1 or 2;
• is not currently subject to a formal enforcement proceeding or order
    by FDIC, OCC, or the Federal Reserve System; and
• has not undergone a change in control during the 12-month period
    since completion of the last full-scope, onsite examination.

Enforcement Actions Available to OCC

OCC examinations of banks result in the issuance of reports of
examinations (ROE) that identify any areas of concern. OCC uses
informal and formal enforcement actions to address violations of laws
and regulations and to address unsafe and unsound practices.

Informal Enforcement Actions

OCC may use informal enforcement actions when a bank’s overall
condition is sound, but it is necessary to obtain written commitments
from a bank’s board of directors or management to ensure that it will
correct problems and weaknesses. Informal enforcement actions
provide a bank with more explicit guidance and direction than a ROE
normally contains but are generally not legally binding. Informal
enforcement actions include commitment letters and memoranda of
understanding.

Formal Enforcement Actions

Formal enforcement actions are authorized by statute, generally more
severe than informal actions, and disclosed to the public. Formal
enforcement actions are enforceable under the Federal Deposit
Insurance Act. They are appropriate when a bank has significant
problems, especially when there is a threat of harm to the bank,
depositors, or the public. OCC is to use formal enforcement actions
when informal actions are considered inadequate, ineffective, or
otherwise unlikely to influence bank management and board members
to correct identified problems and concerns in the bank’s operations.
Because formal actions are enforceable, OCC can assess civil money
penalties against banks and individuals for noncompliance with a
formal agreement or final order. OCC can also request a federal court

Material Loss Review of Union Bank, N.A.                       Page 21
                        Appendix 2
                        Background



                        to require the bank to comply with an order. Formal enforcement
                        actions include consent orders, cease and desist orders, formal written
                        agreements, safety and soundness, and prompt corrective action
                        directives.

                        OCC Enforcement Guidelines

                        Factors used in determining whether to use informal action or formal
                        actions include the following:

                        •   the overall condition of the bank;

                        •   the nature, extent, and severity of the bank’s problems and
                            weaknesses;

                        •   the commitment and ability of bank management to correct the
                            identified deficiencies; and

                        •   the existence of previously identified but unaddressed problems or
                            weaknesses.9




9
    OCC Policies and Procedures Manual 5310-3 (Rev).

                        Material Loss Review of Union Bank, N.A.                        Page 22
                   Appendix 3
                   Glossary


Allowance for loan and             An estimate of uncollectible amounts that is used
lease losses (ALLL)                to reduce the book value of loans and leases to the
                                   amount that is expected to be collected. It is established
                                   in recognition that some loans in the institution’s overall
                                   loan and lease portfolio will not be repaid.

Brokered deposit                   Any deposit that is obtained, directly or indirectly, from a
                                   deposit broker. The bank solicits deposits by offering
                                   rates of interest that are significantly higher than the rates
                                   offered by other insured depository institutions in its
                                   normal market area. Use of brokered deposits is limited
                                   to well-capitalized insured depository institutions and,
                                   with a waiver from the Federal Deposit Insurance
                                   Corporation (FDIC), to adequately capitalized institutions.
                                   Undercapitalized institutions are not permitted to accept
                                   brokered deposits. (See 12 U.S.C. § 1831(f) and 12
                                   C.F.R. 337.6.)

Call report                        A quarterly report of income and financial condition that
                                   banks file with their regulatory agency. The contents of a
                                   call report include consolidated detailed financial
                                   information on assets, liabilities, capital, and loans to
                                   executive officers, as well as income, expenses, and
                                   changes in capital accounts.

CAMELS                             An acronym for performance rating components for
                                   financial institutions: capital adequacy, asset quality,
                                   management, earnings, liquidity, and sensitivity to market
                                   risk. Numerical values range from 1 to 5, with 1 being the
                                   best rating and 5 being the worst.

Capital Restoration Plan (CRP)     A plan submitted to the appropriate federal banking
                                   agency by an undercapitalized insured depository
                                   institution. A capital restoration plan specifies the steps
                                   the insured depository institution is to take to become
                                   adequately capitalized, the levels of capital to be attained
                                   during each year in which the plan is in effect, how the
                                   institution is to comply with the restrictions or
                                   requirements then in effect, the types and levels of
                                   activities in which the institution is to engage, and any
                                   other information that the federal banking agency may
                                   require.




                   Material Loss Review of Union Bank, N.A.                               Page 23
                     Appendix 3
                     Glossary


Cease and Desist Order               A formal action in which provisions are set out in article-
                                     by-article form and prescribes restrictions and remedial
                                     measures necessary to correct deficiencies or violations
                                     in the bank in order to return it to a safe and sound
                                     condition. The form and legal effect is identical to a
                                     consent order; however, a cease and desist order is
                                     imposed on an involuntary basis after issuance of a
                                     Notice of Charges, hearing before an administrative law
                                     judge, and final decision and order issued by the
                                     Comptroller.

Classified Asset                     A loan or other asset that, in the opinion of examiners, is
                                     at risk to some degree. Such assets fail to meet
                                     acceptable credit standards. Examiners have adopted
                                     the following uniform guidelines for listing poorly
                                     performing assets: (1) loss, or complete write-off; (2)
                                     doubtful, where repayment in full is questionable; (3)
                                     substandard, where some loss is probable unless
                                     corrective actions are taken; and (4) special mention,
                                     indicating potential problems such as missing
                                     documentation or insufficient collateral.

Commercial real estate loans         Loans for real property where the primary or significant
                                     source of repayment is from rental income associated
                                     with the property or the proceeds of the sale, refinancing,
                                     or permanent financing of the property. Commercial real
                                     estate loans include construction and real estate
                                     development, land development, and commercial
                                     properties such as office buildings and shopping centers.

Concentration (of credit)            A situation where direct, indirect, or contingent
                                     obligations exceed 25 percent of a bank's capital
                                     structure.

Concentration risk                   Risk in a loan portfolio that arises when a
                                     disproportionate number of an institution’s loans are
                                     concentrated in one or a small number of financial
                                     sectors, geographical areas, or borrowers.




                     Material Loss Review of Union Bank, N.A.                            Page 24
                   Appendix 3
                   Glossary


Consent order                      The title given by the Office of the Comptroller of the
                                   Currency (OCC) to a cease and desist order that is
                                   entered into and becomes final through the board of
                                   directors’ execution, on behalf of the bank, of a
                                   stipulation and consent document. Its provisions are set
                                   out in article-by-article form and prescribes restrictions
                                   and remedial measures necessary to correct deficiencies
                                   or violations in the bank in order to return it to a safe and
                                   sound condition.

De novo bank                       A newly chartered bank that has been open for less than
                                   3 years.

Division of Resolutions            A division within FDIC that is charged with resolving
and Receiverships (DRR)            failing and failed financial institutions, including ensuring
                                   that depositors have prompt access to their insured
                                   funds.

Federal Home Loan Bank             The Federal Home Loan Bank (FHLB) System provides
                                   liquidity to member institutions that hold mortgages in
                                   their portfolios and facilitates the financing of mortgages
                                   by making low-cost loans, called advances, to its
                                   members. Advances are available to members with a
                                   wide variety of terms to maturity, from overnight to long
                                   term, and are collateralized. Advances are designed to
                                   prevent any possible loss to FHLBs, which also have a
                                   super lien (a lien senior or superior to all current and
                                   future liens on a property or asset) when institutions fail.
                                   To protect their position, FHLBs have a claim on any of
                                   the additional eligible collateral in the failed bank. In
                                   addition, FDIC has a regulation that reaffirms FHLB
                                   priority, and FHLBs can demand prepayment of
                                   advances when institutions fail.

Formal agreement                   A type of formal enforcement action authorized by
                                   statute. Formal agreements are generally more severe
                                   than informal actions and are disclosed to the public.
                                   Formal actions are also enforceable through the
                                   assessment of civil money penalties.




                   Material Loss Review of Union Bank, N.A.                              Page 25
                    Appendix 3
                    Glossary


Full-scope examination              Examination activities performed during the supervisory
                                    cycle that (1) are sufficient in scope to assign or confirm
                                    a bank’s CAMELS composite and component ratings;
                                    (2) satisfy core assessment requirements; (3) result in
                                    conclusions about a bank’s risk profile; (4) include onsite
                                    supervisory activities; and (5) generally conclude with the
                                    issuance of a report of examination.

Generally accepted                  A widely accepted set of rules, standards, and
accounting principles               procedures for reporting financial information, established
                                    by the Financial Accounting Standards Board.

Impairment                          Decline in fair value of a loan below the amortized cost
                                    basis.

Interest reserve                    An account established by the lender to periodically
                                    advance funding to pay interest charges on the
                                    outstanding balance of a loan.

Matter Requiring Attention          A bank practice noted during an examination that
                                    deviates from sound governance, internal control, and
                                    risk management principles, which may adversely affect
                                    the bank’s earnings or capital, risk profile, or reputation if
                                    not addressed. It may also result in substantive
                                    noncompliance with laws and regulations, internal
                                    policies or processes, OCC supervisory guidance, or
                                    conditions imposed in writing in connection with the
                                    approval of any application or other request by a bank.
                                    Matters requiring attention are not enforcement actions,
                                    but failure by a bank’s board and management to
                                    address a matter requiring attention could lead to an
                                    enforcement action.

Other Real Estate Owned             Real properties that a bank has acquired that do not
                                    constitute its banking facilities. Such properties include
                                    real estate acquired in full or partial satisfaction of a debt
                                    previously contracted and are subject to specific holding
                                    periods, disposition requirements, and appraisal
                                    requirements.

Other-than-temporary                A loss that must be recognized when it is determined
impairment charge                   that an impairment is other than temporary. The amount
                                    recognized equals the difference between the cost of an
                                    investment and its fair value.


                    Material Loss Review of Union Bank, N.A.                               Page 26
                     Appendix 3
                     Glossary


Prompt corrective action             A framework of supervisory actions for insured banks that
                                     are not adequately capitalized. It was intended to ensure
                                     that action is taken when an institution becomes
                                     financially troubled in order to prevent a failure or
                                     minimize resulting losses. These actions become
                                     increasingly severe as a bank falls into lower capital
                                     categories. The capital categories are well-capitalized,
                                     adequately capitalized, undercapitalized, significantly
                                     undercapitalized, and critically undercapitalized. (See
                                     12 U.S.C. § 1831o)

                                     The prompt corrective action minimum requirements are
                                     as follows:

                                                                     Tier 1/
                                               Total                 Risk-              Tier 1/
                     Capital Category          Risk-Based            Based              Leverage
                                      a        10%       or and 6%           or and 5% or greater
                     Well-capitalized
                                               greater               greater
                     Adequately                8%        or and 4%           or and 4% or greater
                     capitalized               greater               greater            (3% for 1-rated)
                                               Less          or      Less         or    Less than 4% (except
                     Undercapitalized
                                               than 8%               than 4%            for 1-rated)
                     Significantly             Less          or      Less         or    Less than 3%
                     undercapitalized          than 6%               than 3%
                                               Has a ratio of tangible equity to total assets that is equal
                     Critically
                                               to or less than 2 percent. Tangible equity is defined in
                     undercapitalized
                                               12 C.F.R. § 565.2(f).
                     a
                       To be well-capitalized, a bank also cannot be subject to a higher capital requirement
                     imposed by OCC.

Risk-based capital                   The sum of Tier1 plus Tier 2 capital.

Targeted examination                 A bank examination that does not fulfill all of the
                                     requirements of a statutory full-scope examination.
                                     Targeted examinations may focus on one particular
                                     product, function, or risk, or they may cover specialty
                                     areas.

Tier 1 capital                       Common shareholder’s equity (common stock, surplus,
                                     and retained earnings), noncumulative perpetual
                                     preferred stock, and minority interests in the equity
                                     accounts of consolidated subsidiaries.

Tier 2 capital                       Subordinated debt, intermediate-term preferred stock,
                                     cumulative and long-term preferred stock, and a portion
                                     of the allowance for loan and lease losses.

                     Material Loss Review of Union Bank, N.A.                                   Page 27
                     Appendix 4
                     Chronology of Significant Events



The following chronology describes significant events in the history of Union Bank,
including examinations conducted and enforcement actions taken by the OCC.

   •   Bank Chartered (5/1/98)
          o Union Bank, a community bank with no trust powers, was chartered as a de
              novo bank named Union Bank of Arizona, National Association in Gilbert,
              Arizona. Union Bank was wholly owned by one holding company, Heartland
              Bancshares, Inc. (Heartland).
   •   Consent Order (7/31/02)
          o Consent Order issued to Union Bank board by the OCC as a result of the
              findings of the examination that commenced on April 29, 2002. Order’s
              provision required the board to: a) ensure competent management was in
              place by hiring senior loan officer and president who would manage the
              bank’s daily affairs, b) achieve and maintain higher capital levels, c) develop a
              liquidity program that reduced the bank’s dependence on volatile liabilities
              and limit internet funding, d) establish a written credit administration program,
              e) establish an internal loan review program, f) review ALLL adequacy and
              establish a program for maintenance of adequate allowance, g) prepare a
              budget/business plan, and h) implement an internal audit program.
   •   Bank Merger (12/24/02)
          o First Community National Bank in Corning, Iowa was merged into Union
              Bank.
   •   Safety and Soundness Exam (6/3/03)
          o OCC performs a safety and soundness exam. The exam resulted in a
              composite and CAMELS ratings 3/333423.
   •   Exam Findings (7/18/03)
          o OCC and FDIC representatives attended the 7/18/03 board meeting to
              present the recent exam findings. They noted that the bank’s condition was
              slowly improving and provided recommendations to improve credit
              administration.
   •   SRC Meeting (8/13/03)
          o The OCC decided to maintain the Consent Order as the bank was still unable
              to demonstrate the ability to generate and support sound commercial loan
              underwriting and management.
          o CAMELS Rating upgraded to 3/333423




                     Material Loss Review of Union Bank, N.A.                           Page 28
                  Appendix 4
                  Chronology of Significant Events




•   Board proposes to OCC to hire experienced banker as president and director
    (1/5/04)
        o In January of 2004, new president was proposed to serve as president of
            Union Bank. In April, the no objection letter was sent to the bank by the OCC.
•   District SRC Meeting: Upgrade and Terminate Consent Order (2/20/04)
        o Based on the considerations that the bank’s condition was improved and
            stable, that asset quality was satisfactory with moderate and stable credit risk,
            and that the bank was in full compliance with all articles of the Order, the
            Consent Order was recommended to be lifted.
        o CAMELS rating upgraded to 2/222322
•   Upgrade & Terminate C&D (2/24/04)
        o The OCC presented Consent Order termination letter to the board.
•   Safety and Soundness Exam (7/16/04)
        o OCC performs a safety and soundness exam. The exam resulted in a
            composite and CAMELS ratings 2/222322.
•   FDIC Rating Discussion (9/30/04)
        o FDIC indicated its desire to rate the bank a composite 2, but to leave
            management and sensitivity ratings at a 3. It was also noted that the FDIC
            would most likely not ask to participate in future examinations.
•   Safety and Soundness Exam (1/11/06)
        o OCC performs safety and soundness exam. The exam resulted in a
            composite and CAMELS ratings 2/222222
•   Board Meeting (4/11/06)
        o Two members of the OCC met with the board to discuss the latest exam and
            CRA Public Evaluation. President offered that a capital plan is being
            developed and will be forwarded to the OCC upon completion and that the
            bank has increased ALLL provisions.
•   Safety and Soundness Exam (7/9/07)
        o OCC performs a safety and soundness exam. OCC examiners again
            concluded that the overall condition of Union Bank was satisfactory. Union
            Bank received a composite CAMELS rating of 2, with all components
            remaining at 2, except earnings, which was downgraded to 3.
•    Sale of Iowa Branches (12/31/07)
        o Iowa branches of Union Bank were sold leaving just one branch in Gilbert,
            Arizona. The gain from this transaction is approximately $2.5 million.
•   MRA Follow-up Letter (2/20/08)
        o A letter was sent to the bank to discuss the MRAs which were outlined during
            the 7/9/07 ROE. The OCC scheduled a visit to the bank on 2/25/08 to discuss
            the MRAs and review CRE loan exposure.




                  Material Loss Review of Union Bank, N.A.                            Page 29
                  Appendix 4
                  Chronology of Significant Events




•   Safety and Soundness Exam (4/21/08)
       o OCC performs a safety and soundness exam. The scope was a targeted
            review of asset quality, specifically related to CRE. Examiners downgraded
            the composite CAMELS rating of Union Bank from 2 to 4. The component
            rating for earnings was reduced from 3 to 4, and component ratings for
            capital, asset quality, management, and liquidity were reduced from 2 to 4.
•   Licensing Branch Application (7/1/08)
       o The OCC advised the bank that due to the deteriorating financial condition of
            the bank, it was removing the bank’s applications for relocation of the main
            office and establishment of a branch from expedited review. The OCC
            informed the bank that it was to perform additional evaluations on how the
            new main location and addition of a branch would benefit the bank and fit into
            the bank’s strategic plan.
•   District SRC Meeting (7/1/08)
       o The OCC noted a CAMELS downgrade due to deteriorating condition caused
            by lax board oversight of the bank’s lending activities, specifically the board’s
            failure to appropriately implement sound and effective risk management of the
            bank’s high concentration in CRE.
       o CAMELS rating: 4/344442
•   Branch Withdrawal (7/29/08)
       o The bank notified the OCC that it wished to withdraw the applications for the
            relocation of the main offices and the establishment of a new branch.
•   Enforcement Action Signed (8/14/08)
       o The OCC held a meeting with the bank’s board of directors, at which time all
            members of the board signed the Consent Order, which required the board to:
            a) establish an asset diversification program, b) hire a senior credit officer, c)
            approve a plan to reduce the level of credit risk, d) implement a plan to
            reduce criticized assets, e) develop a program to insure assets are
            appropriately and timely risk rated, f) hire a qualified external loan review
            consultant, g) adopt policies for maintaining adequate ALLL, h) reduce the
            bank’s reliance on wholesale and credit-sensitive liabilities, i) adopt a capital
            plan that includes higher-than-minimum regulatory capital levels, and j)
            receive prior approval for any management fees paid to individuals. The
            bank’s board was also notified that the bank was considered in Troubled
            Condition in August 2008.
•   Capital Injection (9/1/08)
       o Chairman of the board injected $1 million into Union Bank from the sale of
            Heartland stock to his father.
•   Branch Purchase and Assumption Agreement (9/18/08)
       o On 9/12/08, Union Bank entered into a Branch Purchase and Assumption
            Agreement with Unison Bank for the branch office located in Queen Creek,
            AZ. This sale was to take place on or before 11/30/08 and was expected to
            net the bank $850,000 in capital.


                  Material Loss Review of Union Bank, N.A.                             Page 30
                  Appendix 4
                  Chronology of Significant Events




•   Safety and Soundness Exam (9/30/08)
       o OCC performs safety and soundness exam. The exam resulted in a
           composite and CAMELS ratings 5/455543
•   Transfer to Special Supervision Division (12/1/08)
       o Based on the bank’s deteriorating financial condition, its supervision was
           transferred to OCC’s Special Supervision Division in Washington D.C.
•   Targeted Exam (12/8/08)
       o OCC conducted an interim targeted examination of Union Bank based upon
           financial information as of September 30, 2008 and other available
           information up to the time the report was finalized on February 4, 2009.
           Examiners found the overall condition of Union Bank was critically deficient
           and downgraded Union Bank’s composite CAMELS rating from 4 to 5. The
           component ratings for earnings, asset quality, and management were
           downgraded from 4 to 5, while the component rating for capital remained at 4.
           The bank reported Tier 1 Leverage Ratio of 7.92 percent as of December 31,
           2008, which was below the minimum required by the Consent Order. Also
           the ratio was overstated because of erroneous accounting entries that
           inadvertently increased the ratio.
•   Board Exit Meeting (1/6/09)
       o Subsequent to the first Consent Order Follow-Up, the OCC met with the
           board to communicate an additional CAMELS downgrade to a composite ‘5’.
•   Sale of Queen Creek Branch (1/30/09)
       o Union Bank sold its Queen Creek, Arizona branch and booked a gain on the
           sale of $732,830.
•   OREO Letter (1/30/09)
       o OCC’s informed management and the board that the recognition of $2.4
           million in non-interest income attributed to the write up of OREO properties
           were an error in accounting and must be reversed.
•   Management Fees Letter (2/25/09)
       o The Federal Reserve informed the OCC that the bank was paying $22,000
           per month to Heartland in order to service holding company debt. Upon
           notification, the OCC immediately informed the bank that this, as well as
           paying the holding company dividends to service the holding company’s debt,
           was strictly prohibited and in violation with Article X (relating to capital ratios)
           of the C&D order.
•   Undercapitalized Notification (4/30/09)
       o The OCC informed the bank that it was undercapitalized based on its March
           31, 2009 reported financial results. As a result, bank is required to provide
           the OCC with an acceptable Capital Restoration Plan (CRP) no later than
           May 18, 2009.




                  Material Loss Review of Union Bank, N.A.                              Page 31
                 Appendix 4
                 Chronology of Significant Events




•   Capital Call Meeting (5/27/09)
        o The OCC, FDIC Division of Supervision and Compliance and FDIC Division of
            Receivership and Resolution met with the board of directors and informed it
            that the FDIC would prepare to close the bank while it continued to look for
            capital.
•   Non-approval of CRP Letter (6/18/09)
        o OCC rejected board’s CRP because it was based on future events that were
            questionable in terms of succeeding. As the CRP was not acceptable, the
            bank was treated as if it were significantly undercapitalized.
•   Safety and Soundness Exam (7/6/09)
        o OCC performs safety and soundness exam. The exam resulted in a
            composite and CAMELS ratings 5/555543.
•   Critically Undercapitalized Letter (7/9/09)
        o Based on the financial information provided to the OCC as of 6/30/09, the
            OCC informed the bank through a PCA that the bank was deemed to be
            critically undercapitalized.
•   Bank Failed (8/14/09)
        o Union Bank was closed by OCC. The FDIC was appointed receiver. Select
            deposits were acquired by MidFirst Bank, which is headquartered in
            Oklahoma.




                 Material Loss Review of Union Bank, N.A.                        Page 32
                 Appendix 5
                 Union Bank, Examinations and Enforcement Actions



Date                        Significant safety and soundness matters requiring
examination   CAMELS        attention and other recommendations cited in Reports of                     Enforcement
started       rating        Examination 2003-2009                                                       actions
6/3/2003      3/333423      Matters requiring attention
                            •   The board and management need to ensure sound underwriting              Formal agreement
                                and credit administration principles are enforced.                      issued 7/31/2002
                            •   Management and the board have not achieved full compliance
                                with the Interagency Guidelines Establishing Standards for
                                Safeguarding Customer Information.


                            Other Recommendations
                            •   None identified.


7/16/2004     2/222322      Matters requiring attention                                                 None
                            •   Management of the risk to the bank’s earnings and capital posed
                                by changes in interest rates is not adequate.


                            Other Recommendations
                            •   8 identified – Capital 1, Assets Quality 6, Liquidity 1


1/11/2006     2/222222      Matters requiring attention                                                 None
                            •   A capital plan should be formulated based upon budgeted
                                projections, dividends and earnings retention, projected asset
                                growth and mix for risk based capital ratios, and resulting
                                leverage and risk based capital projections and ratios.


                            Other Recommendations
                            •   None identified.


7/9/2007      2/222322      Matters requiring attention
                            •   The board must ensure that appropriate credit management staff
                                is attained to ensure all loan portfolio supervision responsibilities
                                are adequately addressed.
                            •   The board of directors needs to meet on a frequent and
                                consistent basis to ensure effective planning, policy making,
                                personnel administration, control systems, and management of
                                information systems.
                            •   Management and loan officers should review loan grade
                                definitions and assess the accuracy of loan grades assigned to
                                their credits.
                            •   Covenants requiring updated financial information should be
                                established at origination. The analysis of the principal’s outside
                                financial support and sustained cash flow ability should be better
                                documented in credit presentations.
                            •   Management needs to refine reporting of policy exceptions.
                                Supervisory LTV exceptions should be reported separately,



                 Material Loss Review of Union Bank, N.A.                                                       Page 33
                      Appendix 5
                      Union Bank, Examinations and Enforcement Actions



     Date                        Significant safety and soundness matters requiring
     examination   CAMELS        attention and other recommendations cited in Reports of                      Enforcement
     started       rating        Examination 2003-2009                                                        actions
                                     aggregated and compared to capital.
                                 •   The board needs to establish internal CRE credit concentration
                                     limits and should set limits for overall CRE concentrations and for
                                     the higher risk segments. Policies should be enhanced to ensure
                                     guidance on sound risk management practices is outlined. The
                                     board needs to ensure this guidance is implemented, and that
                                     they appropriately identify and monitor the risk.
                                 •   Management needs to develop specific action plans for each of
                                     the credits in the program, the board needs to assess the
                                     program as a continued product line for the bank, and
                                     management needs to pursue the filing of a Suspicious Activity
                                     Report outlining actions that resulted in loss of the bank related to
                                     the AR Factoring Program.
                                 Other Recommendations
                                 •   None identified.


     4/21/2008     4/444442      Matters requiring attention
                                 •   Management and loan officers are not identifying problem assets          Consent Order
                                     in a timely manner, which has resulted in criticized and classified      issued 8/14/2008
                                     assets being understated and efforts to mitigate risk have been
                                     delayed. Independent loan review is inadequate in scope and
                                     coverage and does not provide management with a quality
                                     independent assessment of the loan portfolio.
                                 •   The board needs to develop and implement strategies to reduce
                                     credit and rate sensitive funds sources and maintain liquid
                                     assets.
                                 •   Management needs to set concentration limits for loans by type,
                                     purpose, geography, and other meaningful factors as well as the
                                     development    of   contingency    plans    to   mitigate    excessive
                                     exposures and respond to changing market conditions.
                                 •   Loan covenants should be consistently used to govern credit
                                     agreements. Additionally, the absence of or failure to meet these
                                     requirements should be tracked as exceptions.
                                 •   Management must obtain complete and updated financial
                                     information   and   perform    a   thorough      analysis,   including
                                     borrower/guarantor capacity to liquidate the debt in a reasonable
                                     period.
                                 •   Management needs to update its ALLL methodology to include
                                     FAS 5 pools and FAS 114 impairment calculations consistent
                                                                            10
                                     with GAAP and regulatory guidance.

10
  Generally accepted accounting principles and Interagency Policy Statement on the Allowance for Loan
Losses dated December 13, 2006 note that loan loss allowances must consider inherent risks in
homogeneous loan pools as well as identified or specific risks identified on an individual loan basis.

                      Material Loss Review of Union Bank, N.A.                                                        Page 34
                Appendix 5
                Union Bank, Examinations and Enforcement Actions



Date                       Significant safety and soundness matters requiring
examination   CAMELS       attention and other recommendations cited in Reports of              Enforcement
started       rating       Examination 2003-2009                                                actions
                           •   Management should adopt policies and guidelines that require
                               periodic stress testing of different property types and stress
                               testing of multiple variables.
                           •   The board and management must develop a plan to maintain
                               capital levels that are sufficient for the volume and type of
                               business operation and the associated risk.


                           Other Recommendations
                           •   None identified.




                Material Loss Review of Union Bank, N.A.                                              Page 35
Appendix 6
Management Response




Material Loss Review of Union Bank, N.A.   Page 36
             Section II

   Prior Office of Inspector General
Material Loss Review Recommendations
This page intentionally left blank.
The Treasury Office of Inspector General has completed eight mandated material loss reviews of
failed banks regulated by the Office of the Comptroller of the Currency (OCC) since November
2008. This section provides our recommendations to OCC resulting from these reviews. With one
exception as footnoted in this appendix, OCC management concurred with the recommendations
and has taken or planned corrective actions that are responsive to the recommendations. In certain
instances, the recommendations address matters that require ongoing OCC management and
examiner attention.

Report Title                                         Recommendations to the Comptroller
Safety and Soundness: Material Loss Review of        Re-emphasize to examiners that examiners must
ANB Financial, National Association, OIG-09-013      closely investigate an institution’s circumstances
(Nov. 25, 2008)                                      and alter its supervisory plan if certain conditions
                                                     exist as specified in OCC’s Examiner’s Guide to
OCC closed ANB Financial and appointed the           Problem Bank Identification, Rehabilitation, and
Federal Deposit Insurance Corporation (FDIC) as      Resolution.
receiver on May 9, 2008. At that time, FDIC
estimated a loss to the Deposit Insurance Fund       Re-emphasize to examiners that formal action is
of $214 million.                                     presumed warranted when certain circumstances
                                                     specified in OCC’s Enforcement Action Policy
                                                     (PPM 5310-3) exist. Examiners should also be
                                                     directed to document in the examination files the
                                                     reasons for not taking formal enforcement action
                                                     if those circumstances do exist.

                                                     Reassess guidance and examination procedures
                                                     in the Comptroller’s Handbook related to bank
                                                     use of wholesale funding with focus on heavy
                                                     reliance on brokered deposits and other nonretail
                                                     deposit funding sources for growth.

                                                     Establish in policy a “lessons-learned” process to
                                                     assess the causes of bank failures and the
                                                     supervision exercised over the institution and to
                                                     take appropriate action to address any
                                                     significant weaknesses or concerns identified.

Safety and Soundness: Material Loss Review of        Re-emphasize to examiners the need to ensure
First National Bank of Nevada and First Heritage     that banks take swift corrective actions in
Bank, National Association, OIG-09-033               response to examination findings.
(Feb. 27, 2009)
                                                     Re-emphasize to examiners OCC’s policy on the
OCC closed First National Bank of Nevada and         preparation of supervision workpapers (i.e.,
First Heritage Bank and appointed FDIC as            workpapers are to be clear, concise, and readily
receiver on July 25, 2008. As of December 31,        understood by other examiners and reviewers).
2008, FDIC estimated losses to the Deposit
Insurance Fund of $706 million for First National
Bank of Nevada and $33 million for First
Heritage Bank.




                       Material Loss Review of Union Bank, National Association         Section II, Page 1
                       (OIG-CA-10-009)
Report Title                                       Recommendations to the Comptroller
Safety and Soundness: Material Loss Review of      Conduct a review of investments by national
the National Bank of Commerce, OIG-09-             banks for any potential high-risk concentrations
042 (Aug. 6, 2009)                                 and take appropriate supervisory action.

OCC closed National Bank of Commerce and           Reassess examination guidance regarding
appointed FDIC as receiver on January 16,          investment securities, including government-
2009. As of June 30, 2009, FDIC estimated a        sponsored enterprise securities.
loss to the Deposit Insurance Fund of $92.5
million from this failure.
Safety and Soundness: Material Loss Review of      Caution examiners and their supervisors that
Ocala National Bank, OIG-09-043 (Aug. 26,          when a bank’s condition has deteriorated, it is
2009)                                              incumbent on examiners to properly support and
                                                   document in examination work papers the
OCC closed Ocala National Bank and appointed       CAMELS component and composite ratings
FDIC as receiver on January 30, 2009. As of        assigned, including those that may not have
August 7, 2009, FDIC estimated a loss to the       changed from prior examinations, as well as
Deposit Insurance Fund of $99.6 million.           support a decision not to take an enforcement
                                                   action.

                                                   Remind examiners that it is prudent to expand
                                                   examination procedures for troubled or high-risk
                                                   banks to review the appropriateness of (a)
                                                   dividends and (b) payments to related
                                                   organizations, particularly when the dividends or
                                                   payments may benefit bank management and
                                                   board members. In this regard, OCC should
                                                   reassess, and revise as appropriate, its
                                                   examination guidance for when expanded
                                                   reviews of dividends and related organizations
                                                   should be performed.
Safety and Soundness: Material Loss Review of      Emphasize to examiners that matters requiring
TeamBank, National Association, OIG-10-01          attention are to be issued in reports of
(Oct. 7, 2009)                                     examination in accordance with the criteria
                                                   regarding deviations from sound management
OCC closed TeamBank National Association and       and noncompliance with laws or policies listed
appointed FDIC as receiver on March 20, 2009.      in the Comptroller’s Handbook.
As of September 18, 2009, FDIC estimated a
loss to the Deposit Insurance Fund of $98.4         Emphasize to examiners the need to
million.
                                                    a. adequately assess the responsibilities of a
                                                       controlling official (chief executive
                                                       officer/president, for example) managing the
                                                       bank to ensure that the official’s duties are
                                                       commensurate with the risk profile and
                                                       growth strategy of the institution;
                                                    b. review incentive compensation and bonus
                                                       plans for executives and loan officers; and
                                                    c. ensure that banks conduct transactional and
                                                       portfolio stress testing when appropriate.



                     Material Loss Review of Union Bank, National Association       Section II, Page 2
                     (OIG-CA-10-009)
Report Title                                         Recommendations to the Comptroller
Safety and Soundness: Material Loss Review of        Review OCC processes to ensure that more
Omni, National Bank, OIG-10-017 (Dec. 9,             timely enforcement action is taken once the
2009)                                                need for such action is identified. 1

OCC closed Omni, National Bank and appointed         Impress upon examiner staff the importance of
FDIC as receiver on March 27, 2009. As of            completing all activities in annual supervisory
October 31, 2009, FDIC estimated a loss to the       cycles, including quarterly monitoring. In this
Deposit Insurance Fund of $288.2 million.            regard, supervisors should ensure that quarterly
                                                     monitoring activities are scheduled and carried
                                                     out.

                                                     Implement a policy for EIC rotation for midsize
                                                     and community.
Safety and Soundness: Material Loss Review of        Ensure that after a charter conversion an EIC is
Silverton Bank N. A., OIG-10-033                     promptly assigned and supervisory coverage of
(Jan. 22, 2010)                                      the institution is continuous, to include the
                                                     timely initiation (within no more than 12 months
OCC closed Silverton Bank N.A. and appointed         of the full-scope examination by the prior
FDIC as receiver on May 1, 2009. As of               regulator) of the first full-scope examination
October 31, 2009, FDIC estimated a loss to the       after conversion.
Deposit Insurance Fund of $1.26 billion.
                                                     Ensure that appropriate actions are taken to
                                                     amend or reinforce OCC guidance in response to
                                                     the lessons learned review of the Silverton
                                                     failure.

                                                     Ensure that banks seeking conversion to a
                                                     national charter address all significant
                                                     deficiencies identified by OCC or prior regulators
                                                     before approval.

                                                      Formalize the process for second level reviews
                                                      of charter conversions.
Safety and Soundness: Material Loss Review of        Due to the complexity of the risk-based capital
Citizens Bank, OIG-10-038                            treatment of structured investment securities,
(Mar. 22, 2010)                                      assess the adequacy of OCC Bulletin 2009-15,
                                                     Investment Securities, after it has been in use
OCC closed Citizens National Bank N.A. and           for a reasonable time.
appointed FDIC as receiver on May 22, 2009.
As of January 29, 2010, FDIC estimated a loss        Work with OCC’s regulatory partners to
to the Deposit Insurance Fund of $26 million.        determine whether to propose appropriate
                                                     legislation and/or change regulatory guidance to
                                                     establish limits or other controls for bank
                                                     investments.




1
 OCC did not agree with this recommendation. In its response to our report, OCC asserted that
current policies are sufficient to ensure that timely enforcement action is taken. We accepted its
position with respect to its current processes and consider the recommendation closed.

                       Material Loss Review of Union Bank, National Association        Section II, Page 3
                       (OIG-CA-10-009)
    Section III

Report Distribution
This page intentionally left blank.
Department of the Treasury

        Deputy Secretary
        Office of Strategic Planning and Performance
           Management
        Office of Accounting and Internal Control

Office of the Comptroller of the Currency

        Comptroller of the Currency
        Liaison Officer

Office of Management and Budget

        OIG Budget Examiner

Federal Deposit Insurance Corporation

        Chairman
        Inspector General

United States Senate

        Chairman and Ranking Member
        Committee on Banking, Housing, and Urban Affairs

        Chairman and Ranking Member
        Committee on Finance

United States House of Representatives

        Chairman and Ranking Member
        Committee on Financial Services

Government Accountability Office

        Acting Comptroller General of the United States




Material Loss Review of Union Bank, National Association   Section III
(OIG-CA-10-009)
